No. 20-120
In the Supreme Court of the United States

ALFREDO JUAREZ,
Petitioner,
v.
COLORADO,
Respondent.

On Petition for a Writ of Certiorari to the
Colorado Supreme Court

CERTIFICATE OF SERVICE

I, L. Andrew Cooper, a member of the Bar of the United States Supreme Court,
certify that on September 28, 2020, as required by Supreme Court Rule 29.3 and the
Court’s April 15, 2020 Order, I caused the foregoing Motion under Supreme Court
Rule 30.4 to Extend Time to File Brief in Opposition to be electronically filed
with the Clerk of the U.S. Supreme Court; and also to be served on counsel of record
for the Petitioner, electronically at the email address below:
PHILIP L. TORREY
Crimmigration Clinic Harvard
Immigration and Clinical Program
HARVARD LAW SCHOOL
6 Everett Street, Suite 3105
Cambridge, MA 02138
Email: ptorrey@law.harvard.edu
Counsel of Record for Petitioner

FOR THE ATTORNEY GENERAL
Digitally signed by L.
L. Andrew
Andrew Cooper
Date: 2020.09.28
Cooper
17:09:48 -06'00'
L. ANDREW COOPER
Deputy Attorney General
Colorado Dept. of Law
1300 Broadway, 10th Floor
Denver, CO 80203
(720) 508-6465
Email: andrew.cooper@coag.gov
Counsel of Record for Respondent

